Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL




DESIGN FLAWS IN THE MEDICARE

 INCENTIVE PAYMENT PROGRAM


       ManagementAdvisory Report




                           SERVICE$
                       #
                 ~t$                  ‘%’,
             +

        ~v
         .                                   .JUNE   GIBBS BROWN
        <
        .s                                    Inspector   General
         ‘b $
           %’
            +%’d~~                                     JUNE 1994
              >
                                                     OEI-01-93-00051
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE      OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE      OF EVALUATION              AND INSPECI’IONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,

and effectiveness of departmental programs.


This report was prepared under the direction of Mark R. Yessian, Ph. D., Regional Inspector

General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region, Office of

Evaluation and Inspections. Participating in the project were the following people:


Boston                                                      Headquarters

David R. Veroff, Project Leader                             Hugh Hetzer, Program Specialist

David Schrag, Lead Analyst




For adddimal copies of this rep~ please contact the Boston regional ofice by telephone at
(617) 565-1050, or@ Fax at (617) 565-3751.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




DESIGN FLAWS IN THE MEDICARE

 INCENTIVE PAYMENT PROGRAM


        Management                    Advisory Report




                      SERVICZ$
                  #
              &                  q+
             +
         g                            JUNE GIBBS BROWN
         ;                             Inspector General
         z
          % -g
           %.
            +%d~~                           JUNE 1994
              >                           OEI-01-93-OO051
               EXECUTIVE                              SUMMARY

PURPOSE

To identify design flaws in the Medicare      incentive   payment   program   for physicians   in
Health Professional Shortage Areas.

BACKGROUND

The Omnibus Budget Reconciliation    Acts of 19S7 and 1989 provide bonus payments
for physicians who treat Medicare patients in Health Professional Shortage Areas
(HPSAS). The payments are intended to serve as incentives to attract new physicians
to HPSAS and to retain physicians already practicing there.

Having reviewed the program, we recommend in a companion report that the Health
Care Financing Administration       (HCFA) seek to target the program to primary care
physicians. Nonetheless, the program will still be vulnerable to fraud and waste and
will likely fail to achieve its goals unless a number of concerns are addressed.   We are
issuing this Management      Advisory Report to bring those concerns to the attention of
HCFA and the Congress.

FINDINGS

Because the availability of specialists is not considered in the HPSA designation
process, Medicare may be paying incentives to specialists who are not in short supply.

Because HPSAS represent entire communities with physician access problems but the
Medicare program is focused on the elderly, Medicare may not be paying incentives to
physicians who are in short supply.

Physicians are eligible to receive Medicare     bonus payments      even when they treat
patients who do not live in HPSAS.

The instability of HPSA designation over time means that the incentive payments
cannot be counted on to retain physicians in particular areas for the long term.

The complex method of establishing eligibility for incentive payments makes effective
financial controls very difficult, leaving the program vulnerable to inappropriate
payments.

CONCLUSION

If the incentive payment program continues in its present or a modified form, we
believe the design of the program warrants review to ensure that the program is a
logical mechanism for accomplishing its purported goals. The HCFA will have to


                                                  i
ensure that all cost-effective   measures   are taken to prevent   inappropriate   use of
incentive payment funds.

COMMENTS        ON OUR DRAFT’ REPORT

We solicited comments on a draft of this Management      Advisory Report along with our

draft inspection report, “Medicare Incentive Payments in Health Professional Shortage

Areas,” OEI-01-93-00050,   from the Health Care Financing Administration    (HCFA),

the Public Health Service, the Assistant Secretary for Planning and Evaluation

(ASPE), the Assistant Secretary for Management     and Budget, the Assistant Secretary

for Legislation, and the Physician Payment Review Commission.      We received

comments from HCFA and ASPE that are reproduced in the final inspection report

issued in June 1994.





                                                ii
                    TABLE                     OF         CONTENTS




EXECUTIVE     SUMMARY


INTRODUCITON           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1


FINDINGS    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


  �    Incentive      payments       to physicians       not in short supply           . . . . . . . . . . . . . . . . . 2


  �    No incentives        to physicians       truly in demand            . . . . . . . . . . . . . . . . . . . . . . . 2


  �    Lack of residency          requirement.          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


  �    No guarantee         of long-term        incentives       . . . . . . . . . . . . . . . . . . . . . . . . . ...3


  �    Vulnerability       to inappropriate         payments        . . . . . . . . . . . . . . . . . . . . . . . . . . 4


CONCLUSION         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


COMMENTS     ON THE DRAFI’                 REPORT            . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


APPENDIX    Notes       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l
                              INTRODUCTION

PURPOSE

To identify design flaws in the Medicare      incentive   payment    program    for physicians   in
Health Professional Shortage Areas.

BACKGROUND

The Omnibus Budget Reconciliation      Acts of 1987 and 1989 provide bonus payments
for physicians who treat Medicare patients in Health Professional Shortage Areas
(HPSAS).l     In Calendar Year 1992, these payments amounted to $68 million and were
distributed to nearly 22,000 physicians .2 The payments are intended to serve as
incentives to attract new physicians to HPSAS and to retain physicians already
practicing there.3

The Office of Inspector General recently conducted an inspection to determine
whether the bonus payments were effective in furthering the Federal government’s
interest in improving access to primary health care. In the report resulting from that
inspection,* we raise serious doubts about the payments’ contribution to that goal.

We recommend in that report that the Health Care Financing Administration           (HCFA)
seek to target the program to primary care physicians. Nonetheless the program will
still be vulnerable to fraud and waste and will likely fail to achieve its goals unless a
number of concerns are addressed.      We are issuing this Management      Advisory Report
to bring these concerns to the attention of HCFA and the Congress.




Information for this Management    AdvisoV Report was drawn from several sources.
They include research conducted by all three branches of the Office of Inspector
General, reports from the Physician Payment Review Commission and other
government agencies, and Federal laws and regulations.

This report was prepared in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




    �
    “Medicare    Incentive   Payments   in Health   Professional    Shortage   Areas,” OEI-Ol-93-
00050, June   1994.


                                                1
                                   FINDINGS


Because the availability of specialir~r ir not considered in the HPSA desi~ation   process,
Medicare may be paying incentives to speciali~t.s who are not in short supply.

HPSAS were created to identify eligible placement sites for physicians who are
obligated to serve in the National Health Service Corps (NHSC).       The NHSC,
administered   by the Public Health Semite (PHS), provides scholarships and loan
repayments to providers of primary health care in underserved areas. In judging
whether an area qualifies as a HPSA, PHS calculates the ratio of population to
primary care physicians.4 Primary care physicians include doctors of medicine and
osteopathy in the fields of general or family practice, general internal medicine,
pediatrics, and obstetrics/gynecology. 5 The presence of physicians in other fields has
no effect on HPSA designation.

Because of the way HPSAS are designated, Medicare is paying additional money to
attract and retain specialists in areas where there may be a sufficient number or even
a surplus of specialists.   Because rural HPSAS generally encompass entire population
centers such as counties, it may be reasonable to assume that they suffer from
shortages of specialists as well as primary care physicians. Urban HPSAS, however,
may be small areas such as census tracts. The distribution of physicians within urban
areas may leave these HPSAS with shortages of primary care physicians but high
concentrations   of specialists. Many inner-city HPSAS that are unattractive to office-
based primary care physicians include large hospitals. Those hospitals attract large
numbers of specialists, and those specialists earn incentive payments for providing
services within the hospitals.

All physicians’ services provided in HPSAS count toward the incentive payments.      This
establishes an incentive for physicians in HPSAS to provide all types of procedures,
even those that are prone to overuse.

Because HPSAs represent entire communities with physician accem problems but the
Medicare program ir focused on the elderly, Medicare may not be paying incentives to
physicians who are in short supplj.

In defining HPSAS, the PHS strives to identify areas whose citizens have inadequate

access to health care. In addition to calculating population-to-physician   ratios, PHS

considers some indicators of health status. Specifically, areas with more than 100

births per 1,000 women aged 15-44 or with more than 20 infant deaths per 1,000 live

births are considered to have “unusually high needs for primary medical care

services.”b To address these needs, the PHS allows these areas to maintain lower

population-to-physician   ratios than is usually required for HPSA designation.

Presumably, the types of physicians most needed in these areas are obstetricians and

pediatricians.   Yet these physicians are unlikely to treat many Medicare patients, so a

Medicare incentive payment program is unlikely to help attract or retain them there.

At the same time, there could be areas of the country with sufficiently large numbers
of obstetricians and pediatricians to prevent the areas’ designation as HPSAS, but with
severe shortages of physicians trained in providing care to the elderly. In these areas,
Medicare enrollees could have serious problems obtaining access to medical care, but
the lack of HPSA designation would prevent using the incentive payment program to
attract more physicians.

Physicians in HPSAS are eli~”ble 10 receive Medicare bonus payments   even when they
treat patients who do not live in HPSAS.

The ultimate goal of the incentive payment program is to improve the health status of

residents of areas with shortages of physicians. The payments, in theory, would

motivate physicians to locate offices close to needy patients rather than having patients

travel long distances to see physicians.  But the law specifies that bonus payments shall

be made for all physicians’ services provided within HPSAS, not just those provided to

HPSA residents.


Physicians in rural HPSAS probably do not see many non-HPSA residents because of

the long travel times that would be involved. But urban areas are different, because

HPSAS and non-HPSAs are in close proximity and well-known hospitals attract

patients from within a broad radius. Thus it is likely that a number of physicians are

receiving bonus payments even when they are providing services to people who have

no trouble gaining access to physicians.


The HCFA does not know what percentage of patients treated by physicians who

receive incentive payments live in HPSAS. It is not required to record this

information, and the cost and difficulty of collecting the information prevents it from

doing so voluntarily.


l%e instabiliq of HPSA desipation over time means that the incentive payments     cannot
Be counted on to retain physiciam in particular areas for the long term.

The PHS reviews each HPSA’S status periodically.     If new physicians are attracted to a
HPSA, their presence may bring the population-to-primary-care-physician     ratio below
the ratio necessary for HPSA status. This would lead to withdrawal of the HPSA
designation at the next review. In October 1992, the most recent date for withdrawing
HPSA designations, 81 of the approximately  1800 HPSAS lost their HPSA status.7

Withdrawal of HPSA designation would lead to the elimination of incentive payments
for physicians in that area. This could prompt the departure of physicians who were
attracted to HPSAS by the incentive payments.      The threat of withdrawal also creates
an incentive for physicians currently in HPSAS to deter other physicians from settling
there. Once HPSA designation is withdrawn, bonus payments would cease not only
for the newly arrived physicians but for all physicians in the HPSA.




                                            3

 l%e complex method of establkhing eli~”bility for incentive payments makes effective
jinancial controk very dificult, leaving lhe program vulnerable to inappropriate payments.

Physicians who treat Medicare patients are responsible for determining whether they
(the physicians) are eligible for incentive payments and for indicating their eligibility to
their Medicare carriers. They base their determinations   on information, such as maps
and instructions, supplied by the carriers. They indicate their eligibility by adding a
code to the claim forms they submit to the carriers.

There are many possible ways for providers to submit invalid claims, including      both
honest mistakes and outright fraud. Among the scenarios are:

   �   Physicians who practice from locations both within and outside HPSAS, yet who
       claim bonus payments for semices delivered from all locations.
   �   Physicians who practice in areas that used to be HPSAS but whose HPSA status
       has been withdrawn.
   �   Providers of services other than physicians’ services who submit claims for
       incentive payments even though they are not eligible.

The potentially confusing boundaries of HPSAS (especially in urban areas, where
HPSAS may be defined not by county but by census tract), along with the possibility of
HPSA status changing from year to year, make mistakes likely. For example, among a
sample of 49 prow-ders who received incentive payments in one State for a 3-month
period in 1992, 7 (14 percent) were later found to have been ineligible for the
payments.8 The carrier in that State had to contact these. providers in an attempt to
have the money refunded.     Although the claims error rate for the entire program has
declined in recent quarters, problems persist.9

Programming      the carriers’ computers to detect all errant claims for incentive payments
would be extremely difficult and expensive. The HCFA does not require the carriers
to do so. Instead, the carriers must annually review a sample of claims from the
providers who claim the most incentive money and resolve any discrepancies.l”
Retrospective    reviews of samples of claims may be sufficient to detect the most
egregious cases of fraud and abuse. They may be insufficient, however, to ensure the
overall financial integrity of the program.




                                             4

                               CONCLUSION


We believe the design and administration    of the program warrants review. The
authorizing legislation for this program needs to be modified to ensure that it is a
logical mechanism for accomplishing its stated goals. The administrators      of the
program, the Health Care Financing Administration,      will have to ensure that all cost-
effective measures are taken to prevent inappropriate    disbursement   of incentive
payment funds.




                                             5

 COMMENTS                    ON       THE        DRAFT             REPORT

We solicited comments on a draft of this Management     Advisory Report along with our

draft inspection report, on whether the bonus payments promote access to primary

care in underserved areas, from the Health Care Financing Administration     (HCFA),

the Public Health Semite, the Assistant Secretary for Planning and Evaluation

(ASPE), the Assistant Secretary for Management     and Budget, the Assistant Secretary

for Legislation, and the Physician Payment Review Commission.     We received

comments from HCFA and ASPE. However, none of the comments were specific to

this report so we did not provide a response to them here. We discuss them fully and

reproduce them verbatim in the final inspection report “ Medicare Incentive Payments

in Health Professional Shortage Areas, ” 0EI-01-93-OO050, June 1994.





                                          6

                              APPENDIX                   A

                                         NOTES


1.
   P.L. 100-203, Sec. 4043; P.L. 101-239, Sec. 6102(c). Forcurrent law, see42
      U.S.C. 13951(m). Health Professional Shortage Areas were originally known as
      Health Manpower Shortage Areas (HMSAS).

2.    Memorandum      and attachments from Edward A. King, Health Care Financing
      Administration,  to Stewart Streimer, Health Care Financing Administration,
      February 22, 1993. The figure of 22,000 excludes physicians reported by
      Medicare’s Railroad Retirement     Board carrier, because most if not all of these
      physicians are also reported by the carriers in the physicians’ own States.

3.    Health Policy Research Consortium, Medicare BCVZUSPaymenfs ro Physicians in
      Health Manpower Shortage Areas: Final Report, Cooperative Agreement No. 18-
      C-98526/l-05, report prepared for Health Care Financing Administration, April
      1989, p. 1:1.

4.    The PHS designates several types of HPSAS. Some HPSAS are areas with
      shortages of dentists, psychiatrists, optometrists, podiatrists, pharmacists, or
      veterinarians. Some are population groups rather than geographic areas.
      Medicare incentive payments, however, are available only in geographic,
      primary care HPSAS.

5.    42 C.F.R. 5, Appendix    A.

6.    42 C.F.R. 5.

7.    57 Fed. Reg. 48919, October 28, 1992, and Public Health Sewice, Division of
      Shortage Designation, “Selected Statistics on Health Professional Shortage
      Areas (as of December 31, 1992),” Table 1. These totals include geographic-
      area HPSAS only, not population-group     or facility HPSAS.

8.    This State was one of the 10 States included in a survey of incentive payment
      recipients conducted by the Office of Evaluation and Inspections, Office of
      Inspector General.   For more information on the survey, see “Medicare
      Incentive Payments in Health Professional Shortage Areas,” OEI-01-93-00050,
      June 1994.

9.    Memorandum   from Director, Office of Program Operations         Procedures, BPO,
      HCFA, to Associate Regional Administrators   for Medicare,      June 30, 1993.

10.   Health Care Financing    Administration,    Medicare Cam”ers Manual,   section   3350
      (revised March 1991).


                                           A-1

